OIG Audit Report 09-09
Annual Accounting and Authentication of Drug Control Funds and Related Performance - Fiscal Year 2008
Audit Report 09-09
January 2009
Office of the Inspector General
Commentary and Summary
This report contains the fiscal  year 2008 attestation review reports of the Federal Bureau of Prisons (BOP), Drug  Enforcement Administration (DEA), Organized Crime Drug Enforcement Task Forces  (OCDETF) Program, and Office of Justice Programs (OJP) annual accounting and authentication  of drug control funds and related performance.   Under the direction of the Office of the Inspector General (OIG), KPMG  LLP performed the attestation reviews.  The  report and annual detailed accounting of funds expended by each drug control  program agency is required by 21 U.S.C. § 1704(d), as implemented by the Office  of National Drug Control Policy (ONDCP) Circular, Drug Control Accounting, dated May 1, 2007.
KPMG LLP prepared the  reports in accordance with the Attestation Standards issued by the American  Institute of Certified Public Accountants (AICPA).  Each of the reports was properly addressed,  titled, and contained the elements required by the AICPA Statements on  Standards for Attestation Engagements, AT Section 100.45.  An attestation review is less in scope than  an examination and, therefore, does not result in the expression of an  opinion.  However, KPMG LLP reported that  nothing came to their attention that caused them to believe the submissions were  not presented in all material respects in accordance with the requirements of  the ONDCP circular.
The OIG reviewed KPMG LLP’s reports  and related documentation and made necessary inquiries of its  representatives.  Our review, as  differentiated from an attestation engagement in accordance with U.S. generally  accepted government auditing standards, was not intended to enable us to  express, and we do not express, an opinion or conclusions on the annual  accounting and authentication of drug control funds and related performance.  KPMG LLP is responsible for the attached accountants’  reports dated January 22, 2009, and January 23, 2009, and the conclusions  expressed in the reports.  However, our oversight  disclosed no instances where KPMG LLP did not comply, in all material respects,  with U.S. generally accepted government auditing standards.
Return to OIG Home Page